No. 19-227
In The

^npreme

of il\s: '^niieb^inUs
Adnan Syed,
Petitioner,
V.

State of Maryland
Respondent.
CERTIFICATE OF SERVICE
I, Lindsay C. Harrison, hereby certify that I am a member of the Bar of this
Court, and that I have this 17th day of September 2019, caused three copies of the Brief
for The National Association of Criminal Defense Lawyers in Support of Petitioner to be
served via overnight mail and an electronic version of the document to be transmitted
via the Court’s electronic filing system to:
Catherine Emily Stetson
Hogan Lovells US LLP
555 13th Street, N.W.
Washington, DC 20004-1109
(202) 637-5600
cate.stetson@hoganlovells.com

Carrie J. Williams
Office of the Attorney General
200 Saint Paul Place
Baltimore, MD 21202
(410) 576-6422
cwilliams@oag.state.md.us

Counsel for Adnan Syed

Counsel for State of Maryland

Lindsay C. Harrison

